USCA4 Appeal: 19-2150

Doc: 22

Filed: 05/21/2020

Pg: 1 of 2

UNPUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
No. 19-2150
WARREN D. TISDALE,
Plaintiff - Appellant,
v.

CASA PARTNERS V.L.P. THE PARK AT WINTERSET; PINNACLE PROPERTY
MANAGEMENT SERVICES L.L.C.; FAIR COLLECTIONS AND OUTSOURCING,
INC.,
Defendants - Appellees.

Appeal from the United States District Court for the District of Maryland, at Baltimore.
George L. Russell, III, District Judge. (l:17-cv-03142-GLR)
Submitted: May 19,2020

Decided: May 21, 2020

Before NIEMEYER, HARRIS, and RICHARDSON, Circuit Judges.
Affirmed by unpublished per curiam opinion.
Warren D. Tisdale, Appellant Pro Se. Morgan Ian Marcus, SESSIONS FISHMAN
NATHAN & ISRAEL, LLC, Chicago, Illinois, for Appellees.
Unpublished opinions are not binding precedent in this circuit.

USCA4 Appeal: 19-2150

Doc: 22

Filed: 05/21/2020

Pg:2of2

PER CURIAM:
Warren D. Tisdale appeals the district court’s orders dismissing his civil action for
lack of subject matter jurisdiction and denying his Fed. R. Civ. P. 59(e) motion. We have
reviewed the record and find no reversible error. Accordingly, we affirm for the reasons
stated by the district court. Tisdale v. CASA Partners V.L.P. The Park at Winterset, No.
1:17-cv-03142-GLR (D. Md. Jan. 31,2019; filed Sept. 26,2019 & entered Sept. 27,2019).
We dispense with oral argument because the facts and legal contentions are adequately
presented in the materials before this court and argument would not aid the decisional
process.
AFFIRMED

2

USCA4 Appeal: 19-2150

Doc: 26

Filed: 06/30/2020

Pg: 1 of 1

FILED: June 30, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 19-2150
(1:17-cv-03142-GLR)

WARREN D. TISDALE
Plaintiff - Appellant
v.

CASA PARTNERS V.L.P. THE PARK AT WINTERSET; PINNACLE
PROPERTY MANAGEMENT SERVICES L.L.C.; FAIR COLLECTIONS AND
OUTSOURCING, INC.
Defendants - Appellees

ORDER
The court strictly enforces the time limits for filing petitions for rehearing
and petitions for rehearing en banc in accordance with Local Rule 40(c). The
petition in this case is denied as untimely.
For the Court—By Direction
/s/ Patricia S. Connor. Clerk

Case l:17-cv-03142-GLR Document 65 Filed 09/26/19 Page 1 of 4

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
101 West Lombard Street
Baltimore, Maryland 21201
410-962-4055

Chambers of
George L. Russell, III
United States District Judge

September 26, 2019
MEMORANDUM TO PARTIES RE:

Warren D. Tisdale v. CASA Partners V.L.P.
The Park at Winterset. et al.
Civil Action No. GLR-17-3142

Dear Parties:
Pending before the Court is Plaintiff Warren D. Tisdale’s Plaintiffs Motion to Alter or
Amend a Judgment Order Pursuant to the Fed. R. Civ. Pro 59(e) (ECF No. 61). The Motion is
ripe for disposition, and no hearing is necessary. See Local Rule 105.6 (D.Md. 2018). For the
reasons outlined below, the Court will deny the Motion.
Around September 2016, Defendant Fair Collections & Outsourcing, Inc. (“FCO”)
reported to the three major credit bureaus—Equifax, TransUnion, and Experian—that Tisdale
owed a debt of $1,471.34 to “Park at Winterset.” (Prop. Am. Compl. at 6, ECF No. 61-1).1 On
August 29, 2017, Tisdale’s Bank of America credit card was declined while renting a truck,
causing him embarrassment. (Id.). The next day, Bank of America closed Tisdale’s account,
noting that it had reviewed his credit report in making the decision. ('Id.'). Bank of America’s
action resulted in disruptions to Tisdale’s personal finances and business operations, including
preventing Tisdale from renewing his state contractor license and prompting Capital One and
Discovery to withdraw pre-approved lines of credit. (Id. at 7). Tisdale “disputed with FCO and
the credit [agencies]” that he didn’t owe anyone $1,471.34 from [Winterset], but in fact
Winterset owed [Tisdale] a security deposit.” (Id.).
According to Tisdale’s Complaint, which the Court dismissed for lack of subject matter
jurisdiction on January 31, 2019, Tisdale rented an apartment from CASA Partners V.L.P. The
Park at Winterset (“Winterset”) and Pinnacle Property Management (“Pinnacle”) from 2013 to
2016. (Compl. at 7, ECF No. 1). Winterset and Pinnacle believed Tisdale still owed rent after
moving out, and when he did not pay, they referred the purported debt to FCO for collection. (Id
at 8).
On October 26, 2017, Tisdale sued FCO, Winterset, and Pinnacle, alleging defamation
and seeking punitive damages. (Compl. at 1, 11, ECF No. 1). On January 31, 2019, the Court
i

Unless otherwise noted, the Court takes the following facts from Tisdale’s Proposed
Amended Complaint, (ECF No. 61-1), and accepts them as true. Citations to Tisdale’s Proposed
Amended Complaint refer to the pagination the Court’s Case Management and Electronic Court
Files (“CM/ECF”). system assigned.

Case l:17-cv-03142-GLR Document 65 Filed 09/26/19 Page 2 of 4

dismissed the Complaint for lack of subject matter jurisdiction. (Jan. 31, 2019 Order, ECF No.
59).
On February 12, 2019, Tisdale filed Plaintiffs Motion to Alter or Amend a Judgment
Order Pursuant to the Fed. R. Civ. Pro 59(e). (ECF No. 61). On March 14, 2019, FCO filed an
Opposition. (ECF No. 62). On March 28, 2019, Tisdale filed a Reply. (ECF No. 63).
The caption of Tisdale’s Motion indicates that he seeks reconsideration under Federal
Rule of Civil Procedure 59, though after citing the relevant case law from the United States
Court of Appeals for the Fourth Circuit, see infra. Tisdale also indicates that he seeks to amend
his Complaint.
A district court may not grant a plaintiffs post-judgment motion to amend his complaint
unless the court first vacates its judgment under Rule 59 or 60. Katvle v. Penn Nat. Gamine. Inc..
637 F.3d 462, 470 (4th Cir. 2011) (citing Laber v. Harvey. 438 F.3d 404, 427 (4th Cir. 2006) (en
banc)). To determine whether vacatur is appropriate, the court does not apply the usual standards
under those rules, but rather “need only ask whether the amendment should be granted, just as it
would on a prejudgment motion to amend” under Rule 15(a). Id. at 471. That is, the district court
evaluates the postjudgment motion and the proposed amended complaint with an eye toward
prejudice, bad faith, and futility. Id (citing Laber. 438 F.3d at 427).
In its Opposition, FCO only challenges Tisdale’s Motion on the basis of futility, so the
Court will confine its analysis to that ground. Leave to amend would be futile when an amended
complaint could not survive a motion to dismiss for failure to state a claim. See United States ex
rel. Wilson v. Kellogg Brown & Root. Inc,. 525 F.3d 370, 376 (4th Cir. 2008). “Leave to amend,
however, should only be denied on the ground of futility when the proposed amendment is
clearly insufficient or frivolous on its face.” Johnson v. Oroweat Foods Co.. 785 F.2d 503, 510
(4th Cir. 1986) (citing Davis v. Piper Aircraft Corp.. 615 F.2d 606, 613 (4th Cir. 1980)). Pro se
pleadings are liberally construed and held to a less stringent standard than pleadings drafted by
lawyers. Erickson v. Pardus. 551 U.S. 89, 94 (2007) (quoting Estelle v. Gamble. 429 U.S. 97,
106 (1976)); accord Brown v. N.C. Dep’t of Corr.. 612 F.3d 720, 722 (4th Cir. 2010). Pro se
complaints are entitled to special care to determine whether any possible set of facts would
entitle the plaintiff to relief. Hughes v. Rowe. 449 U.S. 5, 9-10 (1980). But even a pro se
complaint must be dismissed if it does not allege “a plausible claim for relief.” Forquer v.
Schlee. No. RDB-12-969, 2012 WL 6087491, at *3 (D.Md. Dec. 4, 2012) (citation and internal
quotation marks omitted).
Tisdale argues that his Proposed Amended Complaint states a claim against FCO under
the Fair Credit Reporting Act2 and that it is not in bad faith or prejudicial to FCO. FCO counters
that Tisdale does not plead a plausible FCRA claim. The Court agrees with FCO.

2 In his Motion, Tisdale characterizes his Proposed Amended Complaint as “under the
FCRA and violations of Consumer Credit all involving a federal question.” (Pl.’s Mot. Alter
Amend J. Order Pursuant Fed.R.Civ.P. 59(e) [“Pl.’s Mot.”] at 3, ECF No. 61). In the section of
the Proposed Amended Complaint that states its jurisdictional basis, Tisdale wrote “15 USC
1681 et seq.,” which is the FCRA as codified. Without further information from Tisdale
2

Case l:17-cv-03142-GLR Document 65 Filed 09/26/19 Page 3 of 4

Tisdale does not specify which subsection of the FCRA forms the basis of the Proposed
Amended Complaint—he simply cites the entire law as codified. (See Prop. Am. Compl. at 4).
FCO notes this issue in its Opposition, but Tisdale still does not specify in his Reply which part
of the FCRA he believes FCO violated, instead reminding the Court of its obligation to construe
liberally the pleadings of pro se litigants like himself. In its Opposition, FCO assumes that
Tisdale means to bring his claim under 15 U.S.C. § 1681s-2(b), which concerns furnishers of
consumer information to the credit agencies, and cites case law under that section. Tisdale does
not dispute that assumption or cite a different subsection of the FCRA under which he intended
to bring suit. With that in mind, the Court will analyze the futility of Tisdale’s Proposed
Amended Complaint assuming he intends to bring a claim under § 1681 s-2(b).
A consumer who disputes the accuracy of information in a credit report “may have a
private right of action against the furnisher of the inaccurate information if the furnisher fails to
properly investigate a dispute.” Jackson v. Convergent Outsourcing. Inc.. No. RDB-13-1755,
2014 WL 722116, at *2 (D.Md. Feb. 25, 2014) (citing § 1681s-2(b)). To state a claim under that
section of the FCRA, the plaintiff must plead that: (1) the plaintiff “notified the consumer
reporting agency of the disputed information”; (2) “the consumer reporting agency notified the
defendant furnisher of the dispute”; and (3) “the furnisher then failed to [reasonably] investigate
and modify the inaccurate information.” Alston v. Wells Fargo Bank. N.A.. No. 8:12-CV-03671AW, 2013 WL 990416, at *4 (D.Md. 2013) ('quoting Ausar-El v. Barclay Bank Del.. 2012 WL
3137151, at *3 (D.Md. 2012)). A complaint that does not plead all three of those required
elements is subject to dismissal. See Jackson. 2014 WL 722116, at *2; Wright v. Bank of Am..
No. 3:14-CV-94-RJC-DCK, 2014 WL 1775992, at *2 (W.D.N.C. May 5, 2014); White v. Fannie
Mae. No. CIV.A. 1:13-29923, 2014 WL 5442970, at *6 n.4 (S.D.W.Va. Oct. 24, 2014)
(“Plaintiff appears to merely contend that he notified [the furnisher defendant] directly of the
dispute, which is insufficient to state a claim under the FCRA.”).
Here, Tisdale pleads the first element in his Proposed Amended Complaint, that is, he
disputed the debt with the credit agencies. (See Prop. Am. Compl. at 7). But he does not plead
facts in his Proposed Amended Complaint to support the second or third elements of this FCRA
claim. (Id. at 7-8). In his Reply, Tisdale correctly notes that the reasonableness of FCO’s
investigation is a jury question, but he does not dispute that he failed to even plead the
unreasonableness of FCO’s investigation in the Proposed Amended Complaint. Instead, Tisdale
asserts that he “set forth in his previous filing that FCO’s investigation was unreasonable.” (Pl.’s
Reply FCO Resp. Pl.’s Mot. Alter Am. J. [“Pl.’s Reply”] at 3, ECF No. 63). The Court assumes
that Tisdale’s “previous filing” is his initial Complaint in this case, but the Court dismissed that
pleading, so Tisdale cannot rely on its allegations to support his Proposed Amended Complaint.3
regarding what “Consumer Credit” means, the Court will not construe that reference to be a
claim separate from and in addition to the FCRA claim.
3 Further, “[a]s a general rule, ‘an amended pleading ordinarily supersedes the original
and renders it of no legal effect.’” Young v. City of Mount Ranier. 238 F.3d 567, 572 (4th Cir.
2001) (quoting In re Crvsen/Montenav Energy Co.. 226 F..3d 160, 162 (2d Cir. 2000)). Even if
Tisdale’s Complaint had not been dismissed or superseded, however, it does not allege that one
of the consumer reporting agencies notified FCO of Tisdale’s dispute regarding the debt. (See
generally Compl.).
3

Case l:17-cv-03142-GLR Document 65 Filed 09/26/19 Page 4 of 4

Because Tisdale has not pleaded all three elements of his FCRA claim in his Proposed Amended
Complaint, see Alston. 2013 WL 990416, at *4, the Proposed Amended Complaint would not
survive a motion to dismiss and is, therefore, futile, see Wilson. 525 F.3d at 376; Katvle. 637
F.3d at 471. Accordingly, the Court will deny Tisdale’s Motion.
For the foregoing reasons, Tisdale’s Motion to Alter or Amend a Judgment Order
Pursuant to the Fed. R. Civ. Pro 59(e) (ECF No. 61) is DENIED. Despite the informal nature of
this memorandum, it shall constitute an Order of the Court, and the Clerk is directed to docket it
accordingly and mail a copy to Tisdale at his address of record.
Very truly yours,
/s/

George L. Russell, III
United States District Judge

4

Case l:17-cv-03142-GLR Document 59 Filed 01/31/19 Page 1 of 3

UNITED STATES DISTRICT COURT
DISTRICT OF MARYLAND
101 West Lombard Street
Baltimore, Maryland 21201
410-962-4055

Chambers of
George L. Russell, III
United States District Judge

January 31, 2019
MEMORANDUM TO PARTIES RE:

Warren D. Tisdale v. Casa Partners V.L.P.
The Park at Winterset. et al.
Civil Action No. GLR-17-3142

Dear Parties:
Pending before the Court are Plaintiff Warren D. Tisdale’s Motion for Summary
Judgment (ECF No. 42) and Defendant Fair Collections & Outsourcing, Inc.’s (“FCO”) Motion
for Summary Judgment and Opposition to Plaintiffs Motion for Summary Judgment (ECF No.
52).' For the reasons that follow, the Court concludes it does not have subject-matter jurisdiction
over this case and, therefore, must dismiss it without ruling on the Motions.
Tisdale rented an apartment from Defendants CASA Partners V.L.P. The Park at
Winterset (“CASA”) and Pinnacle Property Management (“Pinnacle”) from 2013 to 2016.
(Compl. at 7, ECF No. I).2 CASA and Pinnacle believed Tisdale still owed rent after moving
out, and when he did not pay, they referred the alleged debt to FCO for collection. (Id at 8).
FCO reported the $1,471.003 debt to the credit reporting agencies, Equifax, Experian, and
TransUnion. (Id.). When he learned of the debt from TransUnion, Tisdale disputed it with both
FCO and TransUnion. (Id.)

i

Also pending are Tisdale’s Motion for Default Judgment (ECF No. 16); “Motion
Pursuant [to Federal Rule of Civil Procedure] 69 Execution” (ECF No. 35); Defendant Fair
Collections & Outsourcing Inc.’s (“FCO”) Motion to Extend Date to Respond to Plaintiffs
Motion for Summary Judgment (ECF No. 43); five nearly identical Objections to Subpoena
Demands Pursuant to Fed.R.Civ.P. 45 Filed or Requested by Fair Collection & Outsourcing, Inc.
(“FCO”), filed by Tisdale (ECF No. 44) and third parties Johnny E. Garle (ECF No. 45), William
G. Jenkins (ECF No. 46), Kevin Williams (ECF No. 47), and Joseph L. Dyson (ECF No. 48);
and Tisdale’s Motion for a Speedy Trial to the United States District Court of Maryland (ECF
No. 50); and Motion to Compel for Answers for the Purposes of [Trial] and to Subpoena
Witnesses (ECF No. 51). The Court will not address these Motions because it concludes it does
not have jurisdiction over this case.
2 Unless otherwise noted, the Court takes the following facts from Tisdale’s Complaint.
(ECF No. 1). Citations to Tisdale’s Complaint and Motions refer to the pagination the Court’s
Case Management and Electronic Court Files (“CM/ECF”) system assigned.
3 In the Affidavit attached to his Motion for Summary Judgment, Tisdale further specifies
the alleged amount owed: $1,471.34. (Pl.’s Aff. 11, 2, 5, 6, ECF No. 42-1).

Case l:17-cv-03142-GLR Document 59 Filed 01/31/19 Page 2 of 3

In 2017, Tisdale’s Bank of America credit card was declined, causing him
embarrassment. (Id at 9). Bank of America later closed Tisdale’s account, noting that the bank
had reviewed his credit report in making the decision. ('Id.'). On October 26, 2017, Tisdale filed
the Complaint against CASA, Pinnacle, and FCO, alleging defamation and seeking punitive
damages. (Id. at 11).
On November 27, 2018, Tisdale filed his Motion for Summary Judgment. (ECF No. 42).
On December 28, 2018, FCO filed its Motion for Summary Judgment and Opposition to
Plaintiffs Motion for Summary Judgment. (ECF No. 52). On January 22, 2019, Tisdale filed his
Opposition/Reply. (ECF No. 56). On January 28, 2019, FCO filed its Reply. (ECF No. 57).
“Federal courts are courts of limited jurisdiction.” Home Buyers Warranty Corp. v.
Hanna. 750 F.3d 427, 432 (4th Cir. 2014) (quoting Kokkonen v. Guardian Life Ins. Co. of
America. 511 U.S. 375, 377 (1994)). Federal district courts have subject-matter jurisdiction over
civil actions that arise under federal law (“federal question jurisdiction”), 28 U.S.C. § 1331
(2018), or have an amount in controversy exceeding $75,000.00, exclusive of interests and costs,
and complete diversity of citizenship (“diversity jurisdiction”), 28 U.S.C. § 1332(a) (2018). To
establish the Court’s diversity jurisdiction, diversity must be “complete”—in other words, that no
defendant in the case is a citizen of the same state as the plaintiff. See Cent. W.Va. Energy Co. v.
Mountain State Carbon. LLC. 636 F.3d 101, 103 (4th Cir. 2011) (citing Caterpillar. Inc, v.
Lewis. 519 U.S. 61, 68 (1996)). A corporation “shall be deemed to be a citizen of any State . . .
by which it has been incorporated and of the State . . . where it has its principal place of
business.” 28 U.S.C. § 1332(c)(1).
Under Federal Rule of Civil Procedure 12(h)(3), “[i]f the court determines at any time
that it lacks subject-matter jurisdiction, the court must dismiss the action.” Further, “questions of
subject-matter jurisdiction may be raised at any point during the proceedings and may (or, more
precisely, must) be raised sua sponte by the court.” Brickwood Contractors. Inc, v. Datanet
Eng’g. Inc.. 369 F.3d 385, 390 (4th Cir. 2004). Under Federal Rule of Evidence 201, the Court is
free to take judicial notice of a matter of public record, as “is not subject to reasonable dispute
because it can be accurately and readily determined from sources whose accuracy cannot
reasonably be questioned.” Fed.R.Evid. 201(b)(2); see also Kim v. Medlmmune. Inc.. No. PJM
03 CV 3149, 2004 WL 3313219, at *3 (D.Md. Aug. 17, 2004) (citing O’Connor v. United States.
159 F.R.D. 22, 25 (D.Md. 1994)) (stating the rule in the analogous context of a Fed.R.Civ.P.
12(b)(1) motion to dismiss for lack of subject-matter jurisdiction), aff d. 122 F.App’x 41 (4th
Cir. 2005).
Because Tisdale and FCO are not diverse, there is not complete diversity in this case. As
a result, the Court does not have diversity jurisdiction over this case. Based on the Owings Mills,
Maryland address listed in the Complaint and subsequent filings, Tisdale is a citizen of
Maryland. (Compl. at 1, ECF No. 1; Obj. to Subpoena at 2, ECF No. 44). As for FCO, Tisdale
listed a Beltsville, Maryland address on the Complaint and FCO Summons, (Compl. at 2;
Summonses at 3, ECF No. 3), where Tisdale successfully served FCO by certified mail, (Certif.
Serv., ECF No. 4). The Court takes judicial notice of the fact that FCO was incorporated in
Maryland, with its principal place of business at the Beltsville address. See Maryland
Department
of
Assessment
and
Taxation,
Business
Entity
Search,
2

Case l:17-cv-03142-GLR Document 59 Filed 01/31/19 Page 3 of 3

https://egov.maryland.gov/BusinessExpress/EntitySearch (search “Business Name” field for
“Fair Collections & Outsourcing” and then click “View Business Details”) (last visited Jan. 23,
2019). FCO, therefore, is also a citizen of Maryland. As a result, there is not complete diversity
between the parties, and, therefore, no diversity jurisdiction. See Cent. W.Va. Energy Co.. 636
F.3d at 103.
The Court also does not have federal question jurisdiction. The Complaint does not
include a claim that arises under federal law. Tisdale also never amended the Complaint to
include one. In the Civil Cover Sheet that accompanies the Complaint, Tisdale cites “15 USC
1692”4 and “unfair debt collection practices” as part of his response to the form’s “Cause of
Action” section.5 (Civil Cover Sheet, ECF No. 1-1). But the top line of the Civil Cover Sheet
states that it “and the information contained herein neither replace nor supplement the filing and
service of pleadings or other papers as required by law, except as provided by local rules of
court.” ('Id.'). Any indication of federal question jurisdiction on the Civil Cover Sheet, therefore,
does not cure the lack of federal question jurisdiction on the face of the Complaint. Further, in
his Motion, Tisdale alleges a violation of another federal law, the Fair Credit Reporting Act
(“FCRA”), 15 U.S.C. §§ 1681 et sea. (2018) (Pl.’s Mot. at 2, ECF No. 42-2). A plaintiff is
“bound by the allegations contained in its complaint and cannot, through the use of motion
briefs, amend the complaint.” Zachair. Ltd, v. Driggs, 965 F.Supp. 741, 748 n.4 (D.Md. 1997)
aff d. 141 F.3d 1162 (4th Cir. 1998). Because Tisdale attempts to amend the Complaint through
his brief, the Court will not consider his FCRA claim. In sum, the face of the Complaint contains
no claims over which the Court has federal question jurisdiction. The Court, therefore, lacks
federal question jurisdiction.
Having neither diversity jurisdiction nor federal question jurisdiction, the Court does not
have subject-matter jurisdiction over this case. As a result, the Court will dismiss the Complaint
without prejudice.6
Despite the informal nature of this memorandum, it shall constitute an Order of the Court,
and the Clerk is directed to docket it accordingly, mail a copy to Tisdale at his address of record,
and CLOSE the case.
Very truly yours,
/s/
George L. Russell, III
United States District Judge
4 15 U.S.C. §§ 1692 et sea. (2018) is the Fair Debt Collection Practices Act (“FDCPA”)
as codified.
5 Tisdale makes contrary indications elsewhere on the Civil Cover Sheet. Under “Basis of
Jurisdiction,” Tisdale marked “Diversity,” but not “Federal Question.” (Civil Cover Sheet, ECF
No. 1-1). Under “Nature of Suit,” Tisdale chose “Rent Lease & Ejectment,” not “Consumer
Credit.” (Id).
6 If he wishes, Tisdale may re-file his suit in this Court, properly stating an FCRA or an
FDCPA claim.
3

Additional material
from this filing is
available in the
Clerk's Office.

